COCKLE

2311 Douglas Street E-Mail Address:
Omaha, Nebraska 68102-1214 \ egal B riefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Bi

Fax: (402) 342-4850

No. 19-439

CTIA — THE WIRELESS ASSOCIATION,
Petitioner,
v.
CITY OF BERKELEY, CALIFORNIA, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
INSTITUTE FOR JUSTICE AND NATIONAL FEDERATION OF INDEPENDENT BUSINESS
IN SUPPORT OF PETITIONER in the above entitled case complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text
and 10 point for the footnotes, and this brief contains 4910 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 3 Ist day of October, 2019.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska : Lue Qudraw- 4
My Commission Expires Nov 24, 2020 G

Notary Public Affiant

 

 

38909
